U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210


September 16, 2010

Mr. Thomas H. McTavish, C.P.A.
Auditor General
201 N. Washington Square
Lansing, Michigan 48913

Title – Recovery Act: Quality Control Review Single Audit of
        State of Michigan Unemployment Compensation Fund
        for the Year Ended September 30,2009

Dear Mr. McTavish:

The purpose of this final report (Report Number 18-10-010-03-315) is to formally
advise you of the results of a Quality Control Review (QCR) the U.S. Department
of Labor (DOL), Office of Inspector General, conducted of the following audit
performed by Andrews, Hooper & Pavlik, P.L.C. under the Federal Single Audit
Act and Office of Management and Budget Circular A-133 (A-133):

      Single Audit of the State of Michigan Unemployment Agency –
      Unemployment Compensation Fund for the Year Ended
      September 30, 2009.

The objectives of the QCR were to determine whether (1) the audit was
conducted in accordance with applicable standards and meets the single audit
requirements, (2) any follow-up work is needed, and (3) there are any issues that
may require management’s attention.

The major programs included in our review were:

DOL Major Programs Reviewed
                                         Catalog of Federal
                                                 Domestic                DOL Funds
Major Program                           Assistance Number                 Expended
Unemployment Insurance (UI)                          17.225           $5,159,423,479
American Recovery and
Reinvestment Act (Recovery Act) –                            17.225
UI                                                                    $1,043,175,820
Total DOL Funds Expended                                              $6,202,599,299



                     Working for America’s Workforce
                                 U.S. Department of Labor – Office of Inspector General


Based on our review of the audit documentation related to the programs above,
we determined that the audit work performed was acceptable and met the
requirements of the Single Audit Act and A-133. No follow-up work is required
and there are no issues that require management’s attention.

Since our review included Recovery Act funds, we are required by the Recovery
Act to post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s website www.recovery.gov.

If you have any questions concerning the results of the QCR, please contact
Robert J. Coyle, Director, Office of Audit Quality Assurance, at (202) 693-5226.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit


cc: Mr. Roger Hitchcock, Partner, Andrews, Hooper & Pavlik, P.L.C.

   Mr. Stephen M. Geskey, Director, State of Michigan UI Agency, Department
   of Labor and Economic Growth

   Ms. Debbie Ciccone, Chief Accountant, State of Michigan UI Agency,
   Department of Labor and Economic Growth

   Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution,
   Employment and Training Administration




                                         2                   Quality Control Review
                                        Michigan - Unemployment Compensation Fund
                                                    Report Number: 18-10-010-03-315
